           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     CHILDHOOD CONTINUING
        DISABILITY REVIEWS
   AND AGE 18 REDETERMINATIONS


     December 2006   A-01-06-21093




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      December 20, 2006                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Childhood Continuing Disability Reviews and Age 18 Redeterminations
           (A-01-06-21093)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           (1) completed continuing disability reviews (CDR) for Supplemental Security Income
           (SSI) recipients under age 18 timely and determined whether recipients received
           appropriate medical treatment and (2) completed eligibility redeterminations in a timely
           manner using adult eligibility criteria for SSI recipients attaining age 18.

           BACKGROUND
                                                      1
           Under Title XVI of the Social Security Act, SSA is required to:

                  (1) Perform CDRs at least every 3 years on all children under age 18 whose
                      impairments are likely to improve (or, at the option of the Commissioner,
                      recipients whose impairments are unlikely to improve).
                  (2) Obtain evidence from the child's representative payee 2 at the time of a CDR
                      that the child is and has been receiving treatment to the extent considered
                      medically necessary and available for the disabling impairment. (If a
                      representative payee refuses without good cause to provide such evidence,
                      SSA may select another payee, or pay benefits directly to the child, if the
                      Agency determines that it is appropriate and in the best interest of the child to
                      do so.)



           1
               The Social Security Act § 1614(a)(3)(H), 42 U.S.C. § 1382c(a)(3)(H).
           2
            A representative payee is a person, agency, organization, or institution selected to receive and manage
           benefits on behalf of a recipient who cannot manage or direct the management of his or her finances
           because of age, mental, and/or physical impairments. The Social Security Act §§ 205(j) and 1631(a),
           42 U.S.C. §§ 405(j) and 1383(a), and 20 C.F.R. §§ 404.2001-2065 and 416.601-665.
Page 2 - The Commissioner


     (3) Redetermine, within 1 year of the individual's 18th birthday, the eligibility of any
         individual who was eligible for SSI childhood benefits in the month before
         attaining age 18 by applying the criteria used in determining initial eligibility for
         individuals who are age 18 or older. 3

SSA generally schedules CDRs at least every 3 years for recipients under age 18
whose impairments may improve. The scheduled disability review date alerts the
                                                                                   4
Agency to the need to initiate a CDR, which can take up to a full year to complete. For
this reason, we considered a CDR to have been performed timely if completed no later
than 12 months after the scheduled disability review date. 5

The Agency generally initiates Age 18 Redeterminations when recipients turn 18;
however, if a review cannot be started because the benefits are suspended, SSA’s
systems will keep trying to initiate the Redetermination until the 19th birthday.
Therefore, we considered an Age 18 Redetermination timely if completed by the
               th
individual’s 20 birthday.

For this review, we analyzed a file of about 1.2 million SSI recipients who were
receiving benefits in June 2005 and identified:

     •   534,155 recipients under the age of 18 who had been receiving SSI for at least
         4 years (Childhood CDR cases) and
     •   48,097 recipients between the ages of 19 and 20 who were receiving SSI prior
         to their 18th birthday (Age 18 Redetermination cases).

For each group of recipients, we selected a random sample of 275 sample cases—for a
total of 550 cases.

We performed a preliminary analysis of the 550 sample cases in February 2006. We
asked the Agency to review the Childhood CDRs and Age 18 Redeterminations that
may not have been conducted timely. Although SSA agreed with our definition of
“timely” for the Age 18 Redetermination cases, the Agency had concerns with our
definition of “timely” for the Childhood CDR cases:
      “OIG’s definition of “timely” for the under age 18 childhood cases (i.e., 12 months
      from the date of the CDR review diary) is too rigid. SSA estimates that it takes
      approximately 1 year to complete a case requiring a full medical review. Some

3
  The Social Security Act § 1614(a)(3)(H)(iii)(II) states Age 18 redeterminations are to be completed either
during the 1-year period beginning on the individual's 18th birthday or, in lieu of a continuing disability
review, whenever the Commissioner determines that an individual's case is subject to a redetermination.
4
 SSA acknowledged that CDRs can take up to a year in our prior report, Review of the Effectiveness of
SSA’s Low Birth Weight Baby Program (A-04-95-06015), July 1997.
5
 In our July 2002 report, Continuing Disability Reviews for Supplemental Security Income Recipients
Approved Based on Low Birth Weight (A-01-02-12031), we also defined CDRs as timely if completed
within 12 months after the scheduled review date.
Page 3 - The Commissioner

          cases take less than 1 year while other cases take longer than 1 year to reach
          an initial determination. Consequently, we believe it is appropriate to focus on
          average processing time for the entire sample of cases but not individual cases
          when assessing the timeliness of this workload.”

The Agency did not agree with our preliminary analysis that the following cases did not
have CDRs completed timely: 6

      •    32 Childhood CDRs were not initiated because of a policy decision made in
                                                                              7
           Fiscal Year (FY) 2003 to curtail CDRs for recipients aged 13 to 17; and
      •    16 Childhood CDRs were not initiated because of budget constraints.

Additionally, 18 recipients had permanent impairments (of the 140 Childhood CDR
cases we referred to SSA). Since 3-year reviews were not required for these cases
under the Social Security Act, we updated our analysis accordingly.

RESULTS OF REVIEW
SSA generally made determinations as to whether the recipients under 18 years of age
were receiving appropriate medical treatment. However, the Agency did not complete
all Childhood CDRs and Age 18 Redeterminations in a timely manner. Based on our
sample results, 39 percent of Childhood CDRs and 12 percent of Age 18
Redeterminations were not completed timely. 8 As a result, we estimate:
       •    SSA paid about $194.7 million in SSI payments to approximately
                                                                              9
            205,900 recipients under age 18 that should not have been paid. Also, the
            Agency will continue to pay an additional $96.9 million annually until these
            reviews are completed.
       •    SSA improperly paid about $4.5 million in SSI payments to approximately
            5,600 recipients who did not have an age 18 redetermination completed by
            age 20. Additionally, the Agency will continue to pay an additional $8.7 million
            annually until these reviews are completed.


6
    SSA did agree with our preliminary analysis of the remaining sample cases.
7
  SSA stated this policy decision was made due to a number of projects implemented at that time to
transition disabled childhood beneficiaries into adulthood.
8
 We believe our definition of timeliness (within 1 year of the scheduled review date) was reasonable
because the average and median number of days it took the Agency to complete Childhood CDRs for our
sample cases were 314 and 238 days, respectively.
9
  According to the SSI annual report for FY 2005 (published May 2006), the lowest annual cessation rates
after all appeals between FYs 1999 through 2005 were 13.6 percent for Childhood CDRs and 26.9 percent
for Age 18 Redeterminations. Therefore, throughout our report, we counted only 13.6 percent of the
dollars related to Childhood CDRs that were not completed and 26.9 percent of the dollars related to
Age 18 Redeterminations that were not completed. (See Appendix B for details on our methodology.)
Page 4 - The Commissioner


CHILDHOOD CDRs
                                                         Our review of 275 sample cases found:
                  Childhood CDRS
             Sample of 275 (from 534,155)                     •   106 Childhood CDRs were not
                                                                  completed timely (i.e., not
          Timely                      Not Due Yet
     125 Cases (45%)                44 Cases (16%)
                                                                  completed within 1 year of the
                                                                  scheduled review date);
                                                              •   125 Childhood CDRs were
                                                                  completed timely; and
                                                              •   44 did not have Childhood
                                                                  CDRs due as of October 2006.

                                                  Of the 106 CDRs not completed timely,
                           Not Timely             55 were never initiated, 7 were initiated
                        106 Cases (39%)
                                                  but not completed as of October 2006,
                                                  and 44 were completed more than a
year after the scheduled review date—35 had benefits continued and 9 had benefits
ceased. Because CDRs were not completed timely, the Agency paid about $100,000
that should not have been paid. 10 Additionally, the Agency will continue to pay the
62 recipients who did not have CDRs initiated or completed about $50,000 annually
until these CDRs are finished. Examples of Childhood CDRs that were not completed
timely include:

     •   A 16-year-old recipient with a conduct disorder was scheduled for a disability
         review in January 2000. SSA initiated the CDR in January 2001 but did not
         complete the review until March 2004. The Agency determined that the
         recipient's impairment had improved and that he was no longer eligible for
         benefits. Between January 2001 (1 year after the scheduled disability review
         date) and March 2004, SSA paid the recipient over $10,000.
     •   A 17-year-old recipient with a seizure disorder was scheduled for a disability
         review in May 2003. As of July 2006, SSA had not started the CDR. Since
         May 2004 (1 year after the scheduled disability review date), the Agency has
         paid this recipient almost $15,000.




10
  Of the 106 CDRs that were not completed timely, we did not count dollars for 41 cases—the
35 continuances, 3 cases where the scheduled medical review came due in October 2006, 2 of the
cessations that were later overturned on appeal and 1 case where benefits were suspended. The
remaining 65 recipients were paid from 1 month to almost 10 years (with a median of 13 months) after the
Childhood CDRs should have been completed.
Page 5 - The Commissioner


DETERMINATIONS REGARDING APPROPRIATE MEDICAL TREATMENT

For SSI recipients under age 18, a CDR will result in a continuance of benefits unless
(1) there has been any medical improvement in the child's impairment(s) and (2) the
                                                                                   11
child's impairment(s) does not result in marked and severe functional limitations.

For continuances in which the child has a payee, the Agency must determine whether
the child is and has been receiving treatment to the extent considered medically
necessary and available for the condition(s) that was the basis for providing benefits.

SSA conducted initial level CDRs for 152 of our 275 Childhood CDR sampled cases.
Of these 152 CDRs:
       •   128 were continued and SSA made a determination about medical treatment.

       •   20 were ceased and did not need a determination about medical treatment; and

       •   4 were continued but SSA did not make a determination about medical
           treatment.

In all four cases in which SSA did not make a determination about medical treatment,
the CDR was completed prior to April 2000—when the Agency put an edit in place that
prevents the childhood CDRs from being cleared without a determination about medical
treatment.

AGE 18 REDETERMINATIONS
                                                         Our review of 275 sample cases found:
             Age 18 Redeterminations
            Sample of 275 (from 48,097)
                                                              •   32 Age 18 Redeterminations
                                                                  were not completed timely (i.e.,
      Timely                                                      not completed by age 20); and
 243 Cases (88%)
                                                              •   243 Age 18 Redeterminations
                                                                  were completed timely.
                                                         Of the 32 Age 18 Redeterminations not
                                                         completed timely, 8 were never initiated,
                                                         21 were initiated but not completed as of
                                                         October 2006, and 3 were completed
                                     Not Timely          after the recipient’s 20th birthday—1 had
                                   32 Cases (12%)        benefits continued and 2 had benefits
                                                         ceased. Because these reviews were
                                                         not completed timely, the Agency paid




11
     The Social Security Act § 1614(a)(4)(B), 42 U.S.C. § 1382c(a)(4)(B) and 20 C.F.R. § 416.994a.
Page 6 - The Commissioner


about $25,600 that should not have been paid. 12 The Agency will continue to pay the
29 recipients who did not have redeterminations initiated or completed about
$49,700 annually until these reviews are finished.

For example, one beneficiary with a psychiatric disorder received benefits since age 16
in 2002. SSA initiated an Age 18 Redetermination in September 2003—3 months prior
to her 18th birthday. However, the file was not sent for a medical review until we asked
for a status on the case in March 2006. The Agency completed the review in
June 2006 and determined that she was no longer eligible for benefits under the
disability criteria for adults. SSA has paid her over $3,600 since her 20th birthday.

CDR FUNDING

In FYs 1996 through 2002, SSA received special funding for processing CDRs. When
SSA did not receive special funding, it began reducing the number of CDRs conducted.
(See Appendix C for information on CDR workloads in FY 1996 through FY 2007). The
Agency is aware of the impact of reducing the CDR workload, as stated in its
Performance Plan for FY 2007:
          “Because of limited resources in FY 2006, in order to maintain service levels for
          initial claims, the Agency has had to make adjustments in program integrity
          workloads. Specifically, the Agency was not able to perform as many CDRs or
          SSI non-disability redeterminations as was planned. The reduction in CDRs has
          potentially allowed some individuals to continue being eligible for benefits when
          they may no longer qualify. For FY 2007, legislation has been introduced to
          earmark funds for conducting increased numbers of CDRs.” 13

On May 11, 2006, the Commissioner testified before the Subcommittee on Social
Security of the House Committee on Ways and Means:
          “We…fulfill our fiscal stewardship responsibility by conducting CDRs, which
          ensure that those who receive disability benefits continue to meet our definition
          of disability. CDRs are a cost-effective program integrity workload, saving $10 in
          program benefits for every $1 spent in administering them…We are doing fewer
          CDRs than called for in the President’s budget request for FY 2006 because we
          have given priority to our claims processing workloads including applications for
          disability benefits. An increase in the number of CDRs conducted in FY 2007 will
          result in greater program savings, but let me stress that we need our full request
          for administrative resources for CDRs, whether provided in our appropriation
          within the discretionary spending cap, or provided as an adjustment to the cap.”




12
  Of the 32 Age 18 Redeterminations not completed timely, we did not count dollars for 4 cases—the
1 continuance, 1 case where benefits were suspended and 2 cases where recipients turned age 20 during
October 2006. The remaining 28 recipients were paid from 1 month to 11 months (with a median of
6 months) after the Age 18 Redeterminations should have been completed.
13
     SSA, Performance Plan for FY 2007 and Revised Performance Plan for FY 2006, p. 5, February 2006.
Page 7 - The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
SSA generally made determinations as to whether the recipients under 18 years of age
were receiving appropriate medical treatment. However, the Agency was not compliant
with the Childhood CDR and Age 18 Redetermination provisions in the Social Security
Act requiring these reviews to be completed within specific time periods. By conducting
these reviews timely, SSA can identify recipients no longer eligible to receive disability
benefits and stop their payments. Therefore, we recommend SSA:
   1. Conduct Childhood CDRs at least every 3 years for children under age 18 whose
      impairments are likely to improve in accordance with the Social Security Act
      provisions. (When the Agency chooses to use its budgetary resources for
      purposes other than conducting these reviews, it should continue to publicly
      disclose these facts to the Congress.)

   2. Conduct Age 18 Redeterminations by the time recipients attain age 20. (When
      the Agency chooses to use its budgetary resources for purposes other than
      conducting these reviews, it should continue to publicly disclose these facts to
      the Congress.)

   3. Continue to seek special funding for CDR workloads.

AGENCY COMMENTS
SSA agreed with the recommendations. (See Appendix D.)




                                             Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Sampling Methodology and Results
APPENDIX C – Continuing Disability Review Funding and Cost Effectiveness
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
CDR      Continuing Disability Review
FY       Fiscal Year
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                      Appendix B

Scope, Sampling Methodology and Results
To accomplish our objective, we:

 Reviewed applicable sections of the Personal Responsibility and Work Opportunity
  Reconciliation Act of 1996 (Public Law 104-193), the Social Security Act and Social
  Security Administration (SSA) regulations, rules, policies and procedures.

 Reviewed prior Office of the Inspector General audits.

 Obtained a file of all Supplemental Security Income (SSI) recipients who were under
  age 21 and receiving benefits in June 2005. We tested the data obtained for our
  audit for accuracy and completeness and determined it to be sufficiently reliable to
  meet our audit objectives. From this file we identified two populations:

      •   534,155 recipients under age 18 with a date of birth after July 1, 1987 and an
          application date of October 1, 2001 or earlier (Childhood Continuing Disability
          Review [CDR] cases).

      •   48,097 recipients over age 18 with a date of birth between October 31, 1985
          and October 1, 1986 (Age 18 Redetermination cases).

  For each population, we selected a random sample of 275 cases—for a total of
  550 cases—and projected our sample results to each population.

  For the Childhood CDR cases, we determined whether a CDR was completed timely
  and if SSA made a determination regarding whether the recipient was receiving
  appropriate medical treatment. Specifically, we:

      1. Reviewed SSA’s systems, including the Supplemental Security Record,
         Disability Control File, and Disability Determination Service Query to obtain
         each individual’s scheduled disability review date. If the scheduled disability
         review date was unavailable, we used 3 years after the most recent
         determination, which could have been an allowance or CDR continuance.

      2. Determined whether the Childhood CDRs were completed timely (no later
         than 12 months after the individual’s scheduled disability review date).

      3. Assessed whether SSA made determinations regarding recipients receiving
         appropriate medical treatment.

  For Age 18 Redetermination cases, we determined whether a redetermination was
  completed timely (by the recipient’s 20th birthday).


                                           B-1
   Referred those cases in which Childhood CDRs and Age 18 Redeterminations did
    not appear to be done timely to SSA for confirmation.

   Quantified for each sample case:

      1. The amount of SSI payments that were issued because SSA did not complete
         a Childhood CDR timely. Specifically, we:

                  (a) Quantified the amount of SSI payments issued between the
                      1 year anniversary of the scheduled disability review date and
                      the earlier of the month of cessation or October 2006 (the date
                      we reviewed the case).

                  (b) Quantified the amount of SSI payments that the Agency could
                      have continued to pay over a 12 month period when a CDR was
                      not completed. To calculate this amount we multiplied the
                      amount of the October 2006 payment by 12.

      2. The amount of SSI payments that were issued because SSA did not complete
         an Age 18 Redetermination timely. Specifically, we:

                  (a) Quantified the amount of SSI payments issued between the date
                      the individual turned 20 and the earlier of the month of cessation
                      or October 2006 (the date we reviewed the case).

                  (b) Quantified the amount of SSI payments that the Agency could
                      have continued to pay over a 12 month period when an
                      Age 18 Redetermination was not completed. To calculate this
                      amount, we multiplied the amount of the October 2006 payment
                      by 12.

   Discussed with staff from SSA’s Office of the Chief Actuary our methodology for
    calculating questioned costs for the Childhood CDRs and Age 18 Redeterminations
    that were not completed timely.

   Obtained copies of SSA’s Annual Report of Continuing Disability Reviews for Fiscal
    Years 1996 through 2005.




                                          B-2
     Obtained disability cessation rates resulting from Childhood CDRs and
      Age 18 Redeterminations from the SSI annual report. 1 The lowest annual cessation
      rates after all appeals between Fiscal Years (FY) 1999 through 2005 were
      13.6 percent for Childhood CDRs and 26.9 percent for Age 18 Redeterminations.
      (See the following tables.)


                                         Childhood CDRs
                            FY                    Cessations After All
                                     Total CDRs
                                                       Appeals 2
                          1999         183,211       41,842 (22.8%)
                          2000         140,699       26,228 (18.6%)
                          2001          95,835       17,250 (18.0%)
                          2002         163,768       24,199 (14.8%)
                          2003         127,444       18,467 (14.5%)
                          2004         103,437       14,042 (13.6%)
                          2005          61,387        9,617 (15.7%)



                                      Age 18 Redeterminations
                            FY          Total      Cessations After All
                                       Reviews          Appeals2
                          1999           49,557       17,722 (35.8%)
                          2000           51,713       18,240 (35.3%)
                          2001           48,944       16,479 (33.7%)
                          2002           54,947       17,313 (31.5%)
                          2003           53,905       16,173 (30.0%)
                          2004           53,232       14,304 (26.9%)
                          2005           55,331       15,003 (27.1%)

     Reduced calculations by the appropriate cessation rates for those sample cases
      where Childhood CDRs or Age 18 Redeterminations were not completed.

     Projected sample results to each population.

We conducted our audit between February and October 2006 in Boston,
Massachusetts. The entities audited were the Office of Disability Programs under the
Deputy Commissioner for Disability and Income Security Programs and the Office of
Disability Determinations under the Deputy Commissioner for Operations. We
conducted our audit in accordance with generally accepted government auditing
standards.
1
    SSA, Annual Report of the Supplemental Security Income Program, p. 91, May 2006.
2
 The cessation rates after all appeals will likely increase in the future as appeals currently pending are
completed.


                                                     B-3
SAMPLE RESULTS AND PROJECTIONS 3

                     Table 1: Payments Issued Because SSA Did Not
                             Complete Childhood CDRs Timely
                  Population size                             534,155
                  Sample size                                     275
                                      Dollar Projections
                  Sample results                             $100,232
                  Point estimate                         $194,689,762
                  Projection lower limit                 $130,827,956
                  Projection upper limit                 $258,551,569
                 Note: All projections were calculated at the 90-percent confidence level.



                   Table 2: Payments SSA Could Potentially Save By
                          Completing All Childhood CDRs Timely
                  Population size                             534,155
                  Sample size                                     275
                                      Dollar Projections
                  Sample results                              $49,868
                  Point estimate                          $96,862,918
                  Projection lower limit                  $77,309,676
                  Projection upper limit                 $116,416,159
                 Note: All projections were calculated at the 90-percent confidence level.



                    Table 3: Childhood CDRs Not Completed Timely
                  Population size                          534,155
                  Sample size                                  275
                                     Attribute Projections
                  Sample cases                                 106
                  Point estimate                           205,892
                  Projection lower limit                   179,729
                  Projection upper limit                   233,047
                 Note: All projections were calculated at the 90-percent confidence level.




3
  The amounts in the following tables are rounded to the nearest whole dollar. Any differences are due to
rounding.


                                                   B-4
   Table 4: Payments Issued Because SSA Did Not
       Complete Age 18 Redeterminations Timely
 Population size                            48,097
 Sample size                                   275
                     Dollar Projections
 Sample results                            $25,588
 Point estimate                         $4,475,347
 Projection lower limit                 $2,926,223
 Projection upper limit                 $6,024,470
Note: All projections were calculated at the 90-percent confidence level.



  Table 5: Payments SSA Could Potentially Save By
    Completing All Age 18 Redeterminations Timely
 Population size                             48,097
 Sample size                                    275
                     Dollar Projections
 Sample results                             $49,684
 Point estimate                          $8,689,694
 Projection lower limit                  $5,846,451
 Projection upper limit                 $11,532,937
Note: All projections were calculated at the 90-percent confidence level.



   Table 6: Age 18 Redeterminations Not Completed
                           Timely
 Population size                          48,097
 Sample size                                 275
                    Attribute Projections
 Sample cases                                 32
 Point estimate                            5,597
 Projection lower limit                    4,138
 Projection upper limit                    7,360
Note: All projections were calculated at the 90-percent confidence level.




                                  B-5
                                                                                     Appendix C

Continuing Disability Review Funding and Cost
Effectiveness
In Fiscal Years (FY) 1996 through 2002, the Social Security Administration (SSA)
received additional funding for conducting Continuing Disability Reviews (CDR). In its
FY 2007 budget request, the Agency requested special funding for CDRs. The chart
below shows SSA’s CDR workloads in FY 1996 through FY 2007.

                                  Continuing Disability Reviews 1
                                                                                       Estimated
                   Special                                Number of       Initial
        FY                          Cost of CDRs                                        10 year
                   Funding                                  CDRs        Cessations
                                                                                        Savings
      1996         $260 million        $208 million           498,400         41,910    $2.5 billion
      1997         $360 million        $330 million           637,874         81,283    $4.2 billion
      1998         $570 million        $462 million         1,356,353       113,315     $5.6 billion
      1999         $720 million        $547 million         1,703,414       131,531     $5.2 billion
      2000         $720 million        $609 million         1,746,882       116,513     $6.0 billion
      2001         $720 million        $603 million         1,730,572       100,233     $5.3 billion
      2002         $720 million        $634 million         1,502,944       120,790     $6.0 billion
      2003                   $0        $551 million         1,361,331       100,545     $5.3 billion
      2004                   $0        $543 million         1,592,010         96,934    $5.7 billion
      2005                   $0        $493 million         1,513,009         86,987    $5.4 billion
      2006*                  $0           -                 1,242,000       -              -
      2007*           -                   -                 1,558,000       -              -
    *The numbers for FY 2006 and FY 2007 are estimates.

SSA's CDR process has consistently yielded a favorable ratio of savings to costs,
averaging roughly $10.5 to $1 for FYs 1996-2005. This ratio was calculated by dividing
the estimated amount of future benefits saved due to CDR cessations by the cost of
CDRs conducted.




1
 SSA, Annual Report of Continuing Disability Reviews, FY 1996 through FY 2005 and SSA, Performance
Plan for FY 2007 and Revised Performance Plan for FY 2006, p. 29, February 2006.
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM


Date:      December 11, 2006                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Childhood Continuing Disability Reviews
           and Age 18 Redeterminations” (A-01-06-21093)
           --INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "CHILDHOOD CONTINUING DISABILITY REVIEWS AND AGE 18
REDETERMINATIONS" (A-01-06-21093) -- INFORMATION

Thank you for the opportunity to review and comment on the draft report. Although we have
several reservations, we agree with the report's findings and its recommendations.

When resources permit, our primary objective is to manage the process so that all continuing
disability reviews (CDR) and age 18 redeterminations that are eligible for review are released
timely. We look forward to the time when adequate resources are made available to the Agency
to perform all CDRs when due and hope that your audit report will help lead in that direction.

The first two recommendations contain the following parenthetical clause: "When the Agency
chooses to use its budgetary resources for purposes other than conducting these reviews, it should
publicly disclose these facts to Congress." This could be interpreted to mean that SSA has not
informed Congress of this in the past. However, on page 6, the report quotes both the
Commissioner's testimony to Congress on May 11, 2006, where she informed them that for FY
2006, SSA is processing fewer CDRs and is instead focusing on initial disability claims, due to
budget restrictions, as well as the Agency's Performance Plan for Fiscal Year 2007. We
recommend that the clause be revised in both recommendations to reflect the fact that SSA
informed Congress in the past. The sentence could be revised as follows: "When the Agency
chooses to use its budgetary resources for purposes other than conducting these reviews, it should
continue to publicly disclose these facts to Congress."

On page 4 of the draft report, there is a reference to the Childhood CDR sample stating, “Of the
106 CDRs not completed timely, 55 were never initiated.” We are concerned that a third party,
not having worked on nor followed this audit closely, may not understand that there are specific
reasons for these 55 cases not being initiated. Most importantly, CDR cases may not be initiated
timely when sufficient funding is unavailable to process the cases. In addition, all CDR cases
requiring a full medical review are routinely examined on a monthly basis to determine if a
condition exists (such as a recipient being in a non-pay status) that would cause the case to be
temporarily screened out and a more productive one substituted in its place.

Our specific responses to the report's recommendations are provided below.

Recommendation 1

Conduct Childhood CDRs at least every 3 years for children under age 18 whose impairments are
likely to improve in accordance with the Social Security Act provisions. (When the Agency
chooses to use its budgetary resources for purposes other than conducting these reviews, it should
publicly disclose these facts to the Congress.)




                                               D-2
Response:

We agree. When we have been able to do so, our procedure is to initiate a case a few months
before the review diary matures to facilitate timely processing.

Recommendation 2

Conduct Age 18 Redeterminations by the time recipients attain age 20. (When the Agency
chooses to use its budgetary resources for purposes other than conducting these reviews, it should
publicly disclose these facts to the Congress.)

Response:

We agree. As in our response to Recommendation 1, when we have been able to do so, our
procedure is to initiate a case a few months before the review diary matures to facilitate timely
processing.

Recommendation 3

Continue to seek special funding for CDR workloads.

Response:

We agree. However, while funding outside the discretionary spending limits was an effective
funding mechanism previously, it is not the only way in which Congress could provide resources
to fulfill the Agency's stewardship responsibilities.




                                                D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Phillip Hanvy, Senior Program Analyst

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-06-21093.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
